SUPREME COURT

FILED
SEP

;

9 202Q

Jorge Mavarrete Clerk

S262980

Deputy

m THE SUPREME COURT OF CALIFORNIA
En Banc
In re JASON J. JOHNSON on Habeas Corpus.
The petition for writ of habeas corpus is denied.

CANTIL-SAKAUYE

ChiefJustice

Court of Appeal. Fourth Appellate District. Division Two
Kevin J. Lane, Clerk/Executive Officer
Electronically FILED on 3/26/2020 by R. Hudy, Deputy Clerk

COURT OF APPEAL - STATE OF CALIFORNIA
FOURTH DISTRICT
DIVISION TWO
ORDER
In re JASON JOHNSON
on Habeas Corpus.

E075042
(Super.Ct.No. RIC1905402)
The Comity of Riverside

THE COURT
The petition for writ of habeas corpus is DENIED.

MILLER
Acting P. J.
Panel: Miller
Raphael
Menetrez
cc:

See attached list

-r
2

SUPERIOR COURT OF THE STATE OF CALIFO RNL^e^1
COUNTY OF RIVERSIDE

3
4

IN RE JASON JOHNSON

Case No.: RIC1905402

n

j| -

Petitioner,

7

8

On Habeas Corpus.

APR 2 3 20211

Criminal Case No.: INF047:
ORDER DENYING PETITION FOR
WRIT OF HABEAS CORPUS

9

10.
11

THIS COURT, having read and considered the petition for writ of habeas corpus and
all exhibits attached thereto filed on October 28, 2019, the informal response to the petition and
13
M I aU exhiHtS attached theret0 filed on February 5, 2020, the reply to the informal response filed
14 on February 19, 2020, and taking judicial notice of the court’s own records in cases INF047290
12

15

and RIC 1203 804 (Evid. Code § 452, subd. (d)), hereby denies the petition in its entirety for the

16

reasons set forth hereafter.

17

Actual Innocence Claim

Petitioner Jason Johnson claims that the statements of Natasha Davis are newly
19 ||discovered evidence under Penal Code1 section 1473(b)(3)(A) which entitle him to the
18

20
21
22
23
24

25

requested relief. Effective January 1, 2017, Penal Code section 1473 was amended as follows:
(b) A writ of habeas corpus may be prosecuted for, but not limited to the fl­
owing reasons. . . Hf] (3) (A) New evidence exists that is credible, material
presented without substantial delay, and of such decisive force and value that it
would have more likely than not changed the outcome at trial, [f] (B).For purposes of this section, “new evidence” means evidence that has been discovered
after trial, that could not have been discovered prior to trial by the exercise of
due diligence, and is admissible and not merely cumulative, corroborative col­
lateral, or impeaching. [As amended by S.B.l 134 § 1 (eff. Jan. 1, 2017).]

26
27

All further undesignated statutory references are to the Penal Code.
28

ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS

j--

supe®wJ|d#

5
6

3

Additional material
from this filing is
available in the
Clerk's Office.

